<html>
<title> - TRANSPORTATION: A CHALLENGE TO INDEPENDENCE FOR SENIORS</title>
<body><pre>[Senate Hearing 113-866]
[From the U.S. Government Publishing Office]




                                                         S. Hrg 113-866
 
        TRANSPORTATION: A CHALLENGE TO INDEPENDENCE FOR SENIORS

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            NOVEMBER 6, 2013

                               __________

                           Serial No. 113-12

         Printed for the use of the Special Committee on Aging
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                             _________ 
  
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-451 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001              
         
         
         
                       SPECIAL COMMITTEE ON AGING

                     BILL NELSON, Florida, Chairman

RON WYDEN, Oregon                    SUSAN M. COLLINS, Maine
ROBERT P. CASEY JR, Pennsylvania     BOB CORKER, Tennessee
CLAIRE McCASKILL, Missouri           ORRIN HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois
KIRSTEN E. GILLIBRAND, New York      DEAN HELLER, Nevada
JOE MANCHIN III, West Virginia       JEFF FLAKE, Arizona
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin             TIM SCOTT, Scott Carolina
JOE DONNELLY, Indiana                TED CRUZ, Texas
ELIZABETH WARREN, Massachusetts
                              ----------                              
                  Kim Lipsky, Majority Staff Director
               Priscilla Hanley, Minority Staff Director
               
               
                                CONTENTS

                              ----------                              


                                                                   Page

Opening Statement of Chairman Senator Bill Nelson................     1
Statement of Ranking Member Susan M. Collins.....................     2

                           PANEL OF WITNESSES

Therese W. McMillan, Deputy Administrator, Federal Transit 
  Administration, U.S. Department of Transportation..............     4
Grant Baldwin, Ph.D., Director, Division of Unintentional Injury 
  Prevention, National Center for Injury Prevention and Control, 
  Centers for Disease Control and Prevention, U.S. Department of 
  Health and Human Services......................................     6
Virginia Dize, Co-Director, National Center on Senior 
  Transportation, National Association of Area Agencies on Aging.     8
Katherine Freund, Founder and President, ITNAmerica..............     9

                                APPENDIX
                      Prepared Witness Statements

Therese W. McMillan, Deputy Administrator, Federal Transit 
  Administration, U.S. Department of Transportation..............    26
Grant Baldwin, Ph.D., Director, Division of Unintentional Injury 
  Prevention, National Center for Injury Prevention and Control, 
  Centers for Disease Control and Prevention, U.S. Department of 
  Health and Human Services......................................    33
Virginia Dize, Co-Director, National Center on Senior 
  Transportation, National Association of Area Agencies on Aging.    45
Katherine Freund, Founder and President, ITNAmerica..............    54

                  Additional Statements for the Record

Dave Wise, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................    68
Norman Y. Mineta, former Secretary, U.S. Department of 
  Transportation, North American Chairman of the Make Roads Safe 
  Campaign, and Member, Commission for Global Road Safety........    78


        TRANSPORTATION: A CHALLENGE TO INDEPENDENCE FOR SENIORS

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2013

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:18 p.m., in 
Room SD-562, Dirksen Senate Office Building, Hon. Bill Nelson, 
Chairman of the Committee, presiding.
    Present: Senators Nelson and Collins.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    The Chairman. Good afternoon. I want to thank my dear 
friend, Senator Collins, for suggesting this hearing today on 
the need for safe and reliable transportation options for 
seniors. It is obviously a crucial topic to seniors in order to 
be able to get around and enhance their quality of life.
    The lack of dependable transportation clearly affects a 
senior's quality of their lives. If they do not have it, they 
cannot go to the grocery store. They cannot get to the doctor's 
appointment. They cannot connect with their friends. Having 
access to transportation helps many older Americans remain 
independent and self-sufficient, two very important things.
    And it is also a cost issue. With transportation 
representing 20 percent of consumer spending, second only to 
housing, obviously, that is a big chunk out of a senior's 
income.
    Florida has a few examples that we can learn from. Miami-
Dade County helps defray the cost of transportation for seniors 
through the Golden Passport program, and it allows residents of 
that South Florida county who are 65 years or older to ride on 
all the transit system buses and rail for free. Urban, 
suburban, and rural communities face different transportation 
challenges, and thus, a variety of options are needed to 
provide seniors with safe and reliable transportation.
    Greater mobility also has a very real impact on health care 
costs when you consider that elders with available 
transportation are more likely to use office-based care rather 
than emergency care with obviously the greater impact on cost 
to the overall health care system. And, access to 
transportation has been linked to even reduced hospital 
readmissions.
    But, we have to do a better job with coordinating Federal 
dollars and working with private partners to ensure that we get 
the most out of the dollars that we have available. If we stay 
on our current path, estimates are that the national cost of 
alternative transportation for seniors will range anywhere 
between $572 billion and $2.2 trillion by the end of this 
decade--correction, by the end of the next decade, by the end 
of 2030.
    The GAO found that while 80 Federal programs fund 
transportation services for the disadvantaged, the total 
spending is unknown. Well, we have to find out. The GAO 
recommended that improved coordination has the potential to 
improve both the quality and cost effectiveness of these 
services.
    In my State of Florida, the Safe Mobility for Life 
Coalition has brought together over 20 organizations, agencies, 
and the universities to improve transportation safety, 
mobility, and access for our seniors. In addition to promoting 
safety for all road users, including drivers, pedestrians, and 
transit users, the Coalition serves as a resource on the 
options for seniors in each community, connecting those seniors 
with a range of public and private services. Now, we need 
coordination like this.
    And so it is fairly simple. We need to ensure that those 
who can drive are able to continue. But if a senior should not 
be driving, then they ought to have an alternative, and we do 
not want a senior getting behind the wheel who should not be 
driving, even though the pressure is there on them to get to 
where they need to get for whatever the reason is. And so our 
seniors deserve nothing less.
    Now, we are going to do something different here today. 
Since Senator Collins was so gracious and insightful to suggest 
this hearing today, what I want to do is I want to turn the 
gavel over to her. Senator Collins.

         OPENING STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you very much, Mr. Chairman, and 
this is typically gracious of you and I must say it feels so 
good to have the gavel back in my hand.
    [Laughter.]
    Senator Collins. But, I will pledge right now that should 
there ever be a change, that I will be as wonderful to you as 
you have been to me.
    And I want to start by thanking you for holding this 
important hearing. Throughout our committee's recent hearings, 
we have focused on a number of the great challenges facing our 
nation as our population ages, and much of that discussion has 
revolved around health care, Social Security, financial 
security, scams directed at our seniors, but there is another 
daunting challenge that has rarely been discussed at a public 
hearing, and I refer to the challenge of senior transportation.
    We Americans love our automobiles. From the time that most 
of us were old enough to drive, we have been behind the wheel. 
Cars mean freedom, not in some grand philosophical sense, but 
in a very real practical sense that matters to us in our 
everyday lives. Having a car and being able to drive it means 
the freedom to go where we want, when we want.
    But as we age, we find it harder and harder to use that 
freedom given to us by automobiles. As our abilities decline, 
driving becomes more and more complicated. Finally, the day 
comes when we wonder whether we should keep driving at all. And 
yet, if we do not, how will we go about our daily lives? And 
many of us struggle with how to tell our parents or our 
grandparents that it is time to give up the keys to the car. 
That is one of the hardest conversations.
    That day has already come for millions of our senior 
citizens. According to the Census Bureau, roughly 19 percent of 
our population, or 13.9 million people, will need alternative 
transportation options to continue living independently. The 
last White House Conference on Aging identified transportation 
as the third most important issue for seniors out of literally 
hundreds of options for priorities.
    And this issue is particularly a critical concern in rural 
States like my State of Maine. Not being able to drive takes a 
particular toll on seniors living in rural, low-density 
population areas. In 2004, the GAO found that 60 percent of 
non-drivers in rural areas reported that they had stayed home 
on a given day because they lacked transportation. In addition, 
non-drivers over the age of 75 and living in the suburbs 
reported significant dissatisfaction with how their 
transportation needs are being met compared to those living in 
cities. Since three out of four older individuals live in low-
density areas, these concerns raise very real policy questions.
    Public transportation, which is often hailed as the primary 
solution, simply does not meet the needs of many seniors. I 
think of my State. It is only the very largest communities that 
have any public transportation at all. More than a third of 
those over age 69 have no public transportation in their 
communities. And even those who do have to plan around route 
restrictions, uneven trip frequencies, hours of operations, or 
advanced notice reservations. In rural areas, the options may 
not exist at all, but even in cities, if, for example, you have 
problems with your sight or mobility, transportation on mass 
transit can be truly daunting.
    According to the Maine Office of Aging and Disability 
Services, of people using State-funded home care services, just 
65 percent of those over age 65 reported that they could always 
get to the doctor when they need it, and only 36 percent could 
always get to the grocery store. Most of them rely--90 
percent--on family and friends to drive them. It is not 
surprising, since one in five Americans age 65 and older does 
not drive. So, without driving, seniors must find some other 
way to get to the places they need to go.
    You know, we talk a lot about doctors' appointments and 
grocery stores, but there is also an issue with social 
isolation, not being able to drive to go see your friends, to 
keep up with family members, and that matters, too, and gets 
even less attention.
    The challenge of providing transportation alternatives to 
our seniors is literally growing by the day as the ``Silver 
Tsunami'' starts to hit our country. To meet the challenge, we 
must find reasonable, practical transportation models that 
allow seniors to stay active and mobile even after they stop 
driving. And one such model is ITNAmerica, which has been 
operating in my home State of Maine since the mid-1990s and has 
since branched out to other communities across the nation. 
ITNAmerica, which we will hear more about today, uses private 
automobiles to provide rides to seniors whenever they want, 
almost like a taxi service. And Katherine Freund, who is the 
founder of ITNAmerica, is here with us today. I am delighted 
that she is able to join us as well as the rest of our 
outstanding panel of witnesses.
    This is an issue that is only going to grow as people are 
living longer and as the baby boomers, 10,000 of us every day, 
turn 65. This is a challenge that has not received the 
attention, in my view, that it has deserved, and that is why I 
am so delighted that our Chairman has agreed to shine a 
spotlight on this issue today.
    Now, Mr. Chairman, I understand you are even going to allow 
me to introduce the witnesses, which is----
    The Chairman. Run the meeting.
    Senator Collins. [continuing]. Given what a great panel we 
have, is truly an honor.
    First, we are going to hear from Therese McMillan, who is 
the Deputy Administrator of the Federal Transit Administration, 
who will talk about the administration's efforts to address the 
transportation and mobility needs of our nation.
    We will then hear from Dr. Grant Baldwin, the Director of 
the Division of Unintentional Injury Prevention at the Centers 
for Disease Control and Prevention.
    We will then hear from Virginia Dize, the Co-Director of 
the National Center on Senior Transportation administered by 
the Easter Seals in partnership with the National Association 
of Area Agencies on Aging.
    And, finally, as I mentioned, we will hear from Katherine 
Freund, the founder and President of ITNAmerica, who will talk 
about the innovative transportation model that she developed, 
and Katherine, I hope you will also tell the story of how you 
became interested in this issue, and you have done so much over 
so many years.
    We will start with Ms. McMillan. Thank you. Thank you all 
for being here.

STATEMENT OF THERESE W. McMILLAN, DEPUTY ADMINISTRATOR, FEDERAL 
   TRANSIT ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. McMillan. Chairman Nelson, Ranking Member Collins, I am 
so excited to be able to be here with you today. I am Therese 
McMillan, Deputy Administrator for the Federal Transit 
Administration, and I want to thank you for the opportunity to 
highlight the administration's efforts to address 
transportation and mobility needs of America's seniors.
    Our nation is undergoing a significant demographic shift 
that will profoundly affect our policies and priorities for 
years to come. By 2050, the number of Americans age 65 and 
older is projected to more than double, and the number of men 
and women 85 years and older could increase fivefold during 
that period. This population, as you observed, can face 
significant challenges, including increased poverty, isolation, 
and the struggle to access medical services.
    The Department of Transportation is committed to helping 
older Americans to age in place and live with dignity in urban 
and rural communities alike. A key point of collaboration is 
the Federal Interagency Coordinating Council on Access and 
Mobility, or CCAM, chaired by the Transportation Secretary. In 
recent years, working with several Federal CCAM partners, the 
FTA awarded competitive grants in more than three dozen States 
and Territories to help install one-call, one-click access to 
transportation, with a special focus on military veterans and 
their families. Through this program, patients at the VA clinic 
in Lee County, Florida, just to cite one example, will be able 
to arrange rides on the spot using a computer kiosk installed 
on site. Importantly, many of these veterans are seniors.
    My agency, the FTA, has entered into many other innovative 
cooperative agreements to improve locally coordinated access to 
public transportation for older individuals. For example, 
working with Easter Seals and other industry partners, we have 
launched a new National Center for Mobility Management. The 
Center will, among other things, develop a database to identify 
best practices for delivering transportation to seniors as 
efficiently as possible.
    Mobility Management is a responsible and innovative use of 
taxpayer dollars that will extend FTA's assistance into 
communities. This approach improves customer service to 
individuals by encouraging partnerships among transportation 
providers, both public and private, at the local level. There 
is no one-size-fits-all. Those who know their communities best 
will serve them the best.
    In fiscal year 2012, FTA provided over $40 million for 
Mobility Management projects, a four percent increase over 
fiscal year 2011. Thanks to ongoing investments in this area, 
today, there are over 400 Mobility Managers nationwide and over 
half the States are planning one-call centers.
    The funding picture is decidedly mixed, however. On the one 
hand, MAP-21, our current authorization, enhances funding and 
services for seniors and others. For example, our program to 
enhance mobility for seniors and people with disabilities is 
authorized to receive $28 million more in fiscal year 2012 than 
under the prior authorization. This includes, for example, 
providing rides on accessible taxicabs, which is working well 
in Houston, Texas, Madison, Wisconsin, and elsewhere. MAP-21 
also increase spending by 25 percent for rural transportation. 
Rural States are home to many of the nation's lowest-income and 
most transit-dependent seniors. And, importantly, MAP-21 
enables the Federal Transit Administration to leverage its own 
investments in coordinated transportation activities with 
matching funds drawn from a variety of other Federal programs, 
ranging from Medicaid to Head Start.
    But the fiscal year 2013 appropriations, the sequester, and 
continuing resolutions have left the Federal Transit 
Administration unable to fund even modest technical assistance 
to help grantees strengthen service delivery and innovation. 
This reduces FTA's ability to invest in transportation 
coordination at a time when it is needed most.
    Despite these and other challenges, however, we must 
continue helping communities to identify and fill the gaps in 
transportation for seniors and others. Oftentimes, seniors 
simply may not know what services and transportation options 
are available to them or how to connect with them. Therefore, 
we need to support Mobility Managers and similar initiatives 
across the country to foster even greater connectivity.
    Mr. Chairman, Ranking Member Collins, this concludes my 
testimony and I would be happy to answer any questions.
    Senator Collins. Thank you.
    Dr. Baldwin.

   STATEMENT OF GRANT BALDWIN, PH.D., DIRECTOR, DIVISION OF 
  UNINTENTIONAL INJURY PREVENTION, NATIONAL CENTER FOR INJURY 
    PREVENTION AND CONTROL, CENTERS FOR DISEASE CONTROL AND 
    PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Baldwin. Good afternoon, Chairman Nelson and Ranking 
Member Collins. Thank you for the opportunity to testify today.
    I am pleased to join my fellow panelists and speak about 
the intersection of transportation and public health and how it 
affects the health of older adults. I will also discuss what 
can be done to help older adults remain safe, active, mobile, 
independent, and healthy as they age.
    As the committee is aware, the U.S. population continues to 
age. In 2012, 14 percent of the U.S. population was 65 years or 
older, and by 2030, it is projected to reach 20 percent. This 
is approximately 72 million older Americans. The fastest-
growing segment of older adults is those aged 85 and older. 
This group is at the greatest risk for experiencing frailty and 
requiring assistance with mobility. Taken together, the 
upcoming growth in the size and life expectancy of the older 
adult population will create new challenges for older Americans 
to get around.
    Many older adults are dependent on cars. This is 
particularly true in suburban and rural areas, where public 
transportation is often limited. In fact, nine out of ten trips 
by older adults are made in personal vehicles. As the baby 
boomers continue turning 65 between now and 2020, the suburbs 
will see a 50 percent increase in people aged 65 to 74.
    But, it is more than the roads that we drive on that can 
make a difference. More broadly, the built environment, the 
human made physical characteristics of a community, can present 
challenges, too. If a community has an abundance of streets 
with fast and high-volume traffic or lacks infrastructure like 
sidewalks and safe street crossings, it will be harder and more 
dangerous to walk, bike, or use other forms of active 
transportation. But, it is more than safety, though. The built 
environment can enable, facilitate, and encourage older adults 
to be physically active, reducing their risk of obesity, 
diabetes, heart disease, and other chronic conditions.
    Mobility, whether by car, public transit, or another form 
of transportation, are critical for an older adult to remain 
independent. Ride sharing, shuttles, or volunteer driver 
services, like those provided by ITNAmerica, offer innovative 
transportation options for American seniors. Beyond keeping an 
older adult connected with family and friends, mobility also 
enables older adults to receive vital health and preventive 
services. Ease of mobility may also enable older adults to 
pursue volunteer or paid work opportunities, bringing 
additional meaning and a sense of fulfillment to their lives 
and benefiting their communities, as well.
    The benefits of mobility underscore the need to improve our 
understanding of the factors that enable older adults to 
successfully and safely manage the transition from driving to 
non-driving. In an upcoming CDC study, we find many older 
adults anticipate driving for years to come and do not plan for 
when they will be unable to drive. Some older adults will face 
limitations in their ability to drive at night, when the 
weather is bad, or due to age-related declines in vision, 
cognitive functioning, or physical capacity. Therefore, we are 
researching older adults' views about having to limit or stop 
driving. In addition, CDC is developing a tool to help older 
adults quickly assess their own mobility.
    Changes to the built environment can also improve 
transportation options for older adults. Affordable, 
accessible, and suitable housing options can allow older adults 
and others living with disabilities to age in place and remain 
in their communities. The availability of public transit and 
the proximity of grocery stores, parks, places of worship, and 
medical offices, just to name a few places, have an impact, 
too. These features are even more important when driving is no 
longer an option.
    CDC works to save lives, protect people, and save money 
through prevention. As America's leading health protection 
agency, we work with many different partners to identify, 
develop, and test programs that can make a difference in 
communities across the country.
    One of the strongest and longest standing collaborations is 
with the U.S. Department of Transportation. We are partners 
with shared interests. This includes a Memorandum of 
Understanding with the National Highway Traffic Safety 
Administration anchored to a mutually agreed upon annual action 
plan. We work together to reduce the number of motor vehicle 
injuries by improving data, strengthening policy, synergizing 
research, and translating evidence-based interventions into 
real world settings. We are currently discussing ways to 
include older mobility in our plans.
    For those older adults who are able to drive, we must 
continue to find ways to improve motor vehicle safety and 
reduce the disproportionate number of fatalities and injuries 
suffered by older adults, whether they are drivers, passengers, 
or pedestrians. We understand that more progress can be made 
through coordinated, sustained, and complementary actions, 
including by partnerships with organizations like AARP and 
others.
    In summary, at the intersection of transportation and 
public health are solutions that can help people get where they 
want to go and keep them safe across the lifespan. By helping 
older adults remain safe, active, mobile, and independent as 
they age, we also have an opportunity to help them remain 
healthier longer. Transportation's impact on health and safety 
is why these collaborations are a priority for CDC. Good 
transportation is good for public health.
    Thank you.
    Senator Collins. Thank you very much.
    Ms. Dize.

  STATEMENT OF VIRGINIA DIZE, CO-DIRECTOR, NATIONAL CENTER ON 
SENIOR TRANSPORTATION, NATIONAL ASSOCIATION OF AREA AGENCIES ON 
                             AGING

    Ms. Dize. Thank you, Chairman Nelson, Ranking Member 
Collins. It is indeed an honor to be here today to address the 
importance of transportation to older adults and the pivotal 
role of coordination in increasing the availability of public 
and private transportation options in local communities.
    My name is Virginia Dize and I am Co-Director of the 
National Center on Senior Transportation. In our work with 
communities, we have seen firsthand the importance of 
coordinating transportation resources across modes and payment 
resources and the value of making connections between 
transportation and health and human services. As our country 
ages, it is increasingly important that we get this right.
    The National Center on Senior Transportation was created by 
Congress in 2005. It is funded by FTA and is cooperatively 
administered by Easter Seals and the National Association of 
Area Agencies on Aging. Our mission to increase transportation 
options for older adults and enhance their ability to live more 
independently within their communities is achieved by gathering 
and sharing best practices, providing information, technical 
assistance and training, facilitating partnerships and 
community engagement, and administering demonstration grants. 
Our work addresses the full range of transportation options, no 
matter the funding source.
    Since 2006, NCST has reached hundreds of communities and 
provided $1.3 million in grant funding. Let me provide just a 
few examples of NCST grantees' work.
    In Dane County, Wisconsin, they created a time bank system 
to help provide transportation to dialysis patients. In 
Knoxville, Tennessee, an NCST grantee combined several funding 
streams to create a new volunteer force and purchase specially-
equipped vehicles to provide older adults the personal travel 
assistance they needed. In Florida, a small grant to the United 
We Guide Project developed a one-call system for information 
about transportation options, safety, and mobility. And, 
finally, in Wichita, Kansas, outreach to encourage the Hispanic 
community to use transit resulted in creation by the transit 
agency of a bilingual Mobility Manager.
    Simply put, being able to get around your community is 
vital to being able to age successfully in place. Missed 
medical appointments can exacerbate chronic conditions and 
increase the risk of hospitalization. Social isolation due to 
lack of transportation can have an equally dire effect on 
health and mental health and may result in placement in long-
term care facilities. Improvements in transit and roadways that 
address the needs of older adults may benefit the community as 
a whole by making it easier, safer, and more comfortable for 
everyone to get where they need and want to go.
    As older adults make up an increasing proportion of the 
overall population in most U.S. communities, their economic and 
social contributions cannot be ignored. An increasing number of 
older adults continue working in their 60s and 70s, and we must 
not forget that, often, it is older adults themselves who are 
the volunteer drivers and escorts who give rides to other older 
people.
    But, there are challenges. Our communities need to do a 
better job coordinating programs and funding streams and use 
public and private mobility resources more efficiently to help 
older people travel. This is both financially and 
programmatically sound.
    Communities also need support to find unique local 
solutions that work. Even in urban areas where transit is 
robust, we know that many more older adults than currently use 
the system could benefit from the service with interventions 
such as travel training and safe and secure walking routes to 
transit.
    However, we know that most older adults live in suburban or 
rural environments with fewer accessible transit options, so 
creative solutions, such as volunteer driver programs and 
assisted transportation, funded with a combination of Federal, 
State, local, and private funds, can help fill the need.
    There are several things that Congress can do within exist 
frameworks to help support communities looking to enhance 
mobility for older adults. First, there needs to be continued 
attention to breaking down the Federal and State barriers to 
local-public-private coordination of mobility assets. The 
United We Ride Initiative at the FTA provides an excellent 
framework for interagency coordination.
    Second, this hearing can serve as a starting point to 
explore the following, perhaps forming a small working group of 
advocates and key decision makers to help to develop 
recommendations in support of consistent coordination guidance 
to recipients of Federal transportation funding, adoption of 
consistent legislative language on transportation coordination 
in the Older Americans Act, MAP-21, and other upcoming 
authorizations. As coordination across Federal funding streams 
is multi-jurisdictional, this committee might seize the 
opportunity to act on behalf of older adults.
    Finally, and perhaps most importantly, we all need to work 
together to drive systems change to assure that community 
transportation responds to the needs and preferences of older 
adults. One option is to infuse the concept of person-centered 
mobility management, which includes both individual education 
and counseling on transportation options plus community-wide 
transportation coordination. That could be infused in all 
Federal transportation programs.
    On behalf of NCST, I truly appreciate the opportunity 
provided by this hearing to spread understanding of the 
importance of mobility for all older Americans and the concept 
of person-centered mobility management as an effective model to 
better serve those needs that Federal, State, local officials, 
and communities can embrace. I look forward to your questions 
and the opportunity to work with you.
    Thank you.
    Senator Collins. Thank you very much for your testimony.
    Ms. Freund.

     STATEMENT OF KATHERINE FREUND, FOUNDER AND PRESIDENT, 
                           ITNAMERICA

    Ms. Freund. Chairman Nelson, Senator Collins, on behalf of 
the older people we serve, their families, and their 
communities, I thank you for the opportunity to be here today. 
My name is Katherine Freund and I am the founder of the 
Independent Transportation Network and founder and President of 
ITNAmerica, the first and only national nonprofit 
transportation service for America's aging population.
    I want to begin by thanking Senator Collins for her 
longstanding support for sustainable senior transportation, and 
I would like to emphasize how much the Independent 
Transportation Network and ITNAmerica are a product of public-
private collaboration.
    I came to senior transportation through a personal 
experience. In 1988, my three-year-old son was run over by an 
84-year-old driver. Ryan survived and is today a healthy young 
man, but others are less fortunate. In 2011 alone, more than 
5,000 older people were killed and 185,000 were injured in 
vehicle crashes.
    With support from AARP, the Transit IDEA program, the 
Federal Transit Administration, National Highway Traffic 
Safety, the Southern Maine Agency on Aging, private 
philanthropy, and the people of Portland, Maine, we created a 
social enterprise that uses efficient business practices to 
build transportation that will scale with the aging population. 
We call our enterprise the Independent Transportation Network, 
or ITN, and we built it as a replicable model with a goal to 
connect ITNs into one national system.
    Today, ITNAmerica has 25 affiliates in 20 States. We have 
delivered 600,000 rides. We are serving more than 5,000 people. 
And we are growing at a rate of 100,000 rides a year. These 
numbers are small when you look at the aging population, with 
10,000 boomers turning 65 every day.
    What is important about ITN is that it does not depend on 
taxpayer dollars for sustainability. A new ITN affiliate may 
use up to 50 percent public money to launch, but after five to 
eight years, it must be sustainable through reasonable fares 
and a diversified base of private local support.
    From a policy perspective, it is easy to justify public 
resources for senior mobility. The classic justifications for 
policy intervention, public safety and market failure, are 
clearly present. But the problem of insufficient public 
resources is a fiscal reality, unlikely to change.
    ITN affiliates are nonprofit membership organizations that 
use automobiles and a combination of paid and volunteer drivers 
to provide service 24 hours a day, seven days a week. The core 
business innovations are the Personal Transportation Account 
and a flexible approach to resources managed through ITNRides, 
enterprise software that connects ITN affiliates across the 
country.
    The Personal Transportation Account is a mobility portfolio 
that holds assets in many forms. Older people may trade their 
cars they no longer drive to pay for rides. Volunteer drivers 
may save transportation credits to plan for their own 
transportation future. Volunteers in one ITN community may send 
their credits to another ITN to pay for rides for a loved one. 
Merchants and health care providers may help to pay for rides 
through Ride and Shop and Healthy Miles programs.
    The result is an average fare of about $11, with the most 
common fare $6, which might seem expensive, but with 30 to 40 
percent of our members at an income of less than $25,000 a 
year, our last five years of customer satisfaction surveys tell 
us that ITN members, by about ten-to-one, feel the fare is 
inexpensive for the service they receive. There is dignity and 
independence in paying for one's self.
    More than 40 percent of ITN rides are for health care. 
About 20 percent are for personal needs and shopping. About 
eight percent are to work or volunteer. Almost 40 percent of 
volunteers save their credits for their own future needs. A 
similar amount donate their credits to the Road Scholarship 
Fund for low-income seniors.
    To assure these innovative practices comply with public 
policy, ITNAmerica has worked with State and local policy 
makers in many States, including Florida, Maine, Illinois, New 
York, Kentucky, Missouri, Ohio, and Tennessee. ITNAmerica has 
completed a 50 State inventory of policies that create 
incentives or remove barriers to the use of private resources, 
and with the National Conference of State Legislatures, we are 
disseminating the results to 10,000 policy makers.
    Our research database is designed to study mobility for 
seniors. With the Centers for Disease Control and Prevention, 
we are studying driving transition for seniors in 17 
communities across the country, and we have just completed six 
years of research to expand ITN to rural communities through 
ITNEverywhere, a suite of software programs that brings 
together ride share, car share, volunteer transport, and 
community transport. ITNEverywhere is to community mobility 
what eBay is to flea markets.
    Senator Nelson, Senator Collins, public resources may be 
scarce, but through the use of information technology and 
policies that remove barriers to the voluntary use of private 
resources, the future for community mobility is bright and 
exciting.
    The Chairman. Ms. Freund, do we get any credit, Susan and 
I----
    [Laughter.]
    The Chairman. [continuing]. For having this hearing, that 
we could then transfer on?
    Senator Collins. Or bank for when we need them.
    Ms. Freund. Senator Nelson, you may have all of my credit.
    [Laughter.]
    Senator Collins. Thank you very much for your testimony.
    Senator Nelson, would you like to go first on questions, 
or----
    The Chairman. No, it should be you.
    Senator Collins. Okay. Thank you.
    First of all, Katherine, I am very glad you talked about 
the personal experience that stimulated your getting involved 
because so many people would have reacted to that terrible 
accident with anger, and instead, you looked at the problem of 
the 84-year-old driver, who clearly should not have been 
driving, and came up with a solution, and I think that is just 
so commendable and I wanted you to share that and appreciate 
that you did.
    I am going to start with you, Ms. McMillan. In 2006, so 
seven years ago, I sponsored legislation that became part of 
the Older Americans Act that created a five-year demonstration 
project to be overseen by the Administration on Aging to 
establish a national nonprofit Senior Transportation Network to 
help provide some transportation alternatives to our aging 
population, and I am sad to report that the Administration on 
Aging really has done nothing with the program that I created. 
So, my question to you is would we have better success if we 
transferred this program to do this pilot project from the 
Administration on Aging to the Department of Transportation? 
There seems to be more interest at DOT in the program, oddly 
enough, than at the Administration on Aging.
    Ms. McMillan. Thank you, Senator, for that question. I 
guess the first thing I would say is that one of the important 
concepts that I think all of us on the panel have stressed is 
that dealing with the challenge of transportation for seniors 
really involves work on a number of levels, and we need to be 
careful about siloing, any of us, to holes that we have full 
jurisdiction over this issue, that it is going to be extremely 
important that the Federal agencies continue to work together.
    I mentioned the Coordinating Council on Access and 
Mobility, and the whole point of setting that up was to make 
sure that all of the Federal agencies could bring our resources 
and talents to bear to deliver the program. So, while there may 
be a lead administrating agency, and certainly we could look at 
that, I think the important point is that we all need to 
continue working together to make sure that we are addressing 
these very complex issues on various levels, and I think that 
has been one of the major factors that has made the programs, 
for example, the National Center for Senior Transportation, 
successful, is this recognition that we need coordination on a 
number of different levels. And so we would be happy to work 
with your staff and talk about next steps further, definitely.
    Senator Collins. Although the GAO has been quite critical 
on the lack of coordination, I guess I am going to ask you, and 
I do not mean to put you on the spot, but since the 
Administration on Aging has yet to provide funding for this 
program, which has existed for a long time now, I am going to 
ask, were you aware of this program?
    Ms. McMillan. I personally was not, but I do not want to 
claim that folks in my Department were not.
    Senator Collins. Fair enough.
    Ms. McMillan. Yes.
    Senator Collins. Fair enough.
    Ms. Freund, you talked about how you have been able to 
transform this program into one that relies on donations, on 
people who participate paying their way. I think it is 
important, and I am not trying to take credit for this, but for 
us to note that there was some Federal funding in the beginning 
that served as a catalyst. Would it have been--and then you 
were able to transform it into a self-sustaining program, which 
is ideally what we always want to see when we are successful in 
securing some Federal funding.
    Do you think you could have gotten off the ground without 
having that initial Federal funding as a catalyst for your 
program? Would it have been harder to get it off the ground?
    Ms. Freund. Yes, it would have been much, much, much harder 
to get it off the ground. The Federal funding came from a 
number of different places. The FTA funds the Transit IDEA 
program, which sponsored some of the initial research. And it 
was, in fact, the Transit IDEA program that directed us to look 
at technology to create efficiency.
    And then, in addition to that, the FTA funded it, I think, 
three or four different times, first to test some of the ideas, 
then to deploy the ideas. There was a $1.2 million FTA grant to 
develop ITN as a sustainable model. And then there was a grant 
to plan the national rollout. So the government, I mean, it 
really has been a public-private partnership.
    I think one of the difficulties, though, is that there is a 
tendency to think that if Federal money goes in, that it stays 
in.
    Senator Collins. Exactly.
    Ms. Freund. This was almost, you know, venture philanthropy 
or venture funding on the part of the FTA to create an 
incentive for private resources and then to be willing to step 
away and let the private sector do it.
    Senator Collins. And, to me, that is what is so impressive 
in your program, is you did have some Federal funding 
initially, but you used it to establish the program and you are 
not dependent on the Federal funding today, and other 
communities have been able to replicate that.
    Let me ask you, Dr. Baldwin, and you, Ms. Dize, the same 
question, and that is if the Federal Government could do one 
thing to help address the transportation needs of our seniors, 
what would it be? Ms. Dize, we will start with you.
    Ms. Dize. I think I may have already answered that in my 
testimony, because I believe that encouraging coordination and 
recognizing that creating a new program in the community is a 
very important thing. It can make a difference in some people's 
lives. By pulling together all the transportation resources and 
all of the players, including older adults and caregivers and 
advocates, to look at the whole system, identify where there 
are gaps, and identify the best way to fill those gaps so that 
the whole community benefits, I think that benefits older 
adults. I think that benefits everyone.
    Senator Collins. Thank you.
    Dr. Baldwin.
    Mr. Baldwin. Sure. Thank you for the question. I am not 
sure I can identify one specific thing, but one thing I did 
want to highlight is, in my view, there are sort of three sort 
of goals or touchpoints that we have to be sensitive to that I 
think many of us have talked about.
    The first is making older drivers safer and understanding 
and managing the transition between driving and non-driving.
    The second is making sure that older adults who are in a 
non-driving mode, and it is my understanding that most of us 
will live six to ten years after we finish driving, that there 
are transportation options available to those older adults, and 
I think some of the innovative solutions have been identified 
today.
    And, lastly, I spoke in my testimony a little bit about the 
built environment, these sort of community-level solutions that 
help all of us from a design perspective. I think there are 
touchpoints in each of those sort of major issues that need 
attention over time.
    Senator Collins. Thank you.
    Mr. Chairman.
    The Chairman. You may be surprised to know that in my 
State, there are 325,000 drivers over the age of 85. Now, of 
course, I know plenty of 85-year-olds that are quite capable of 
driving, but it underscores, as the population ages, more and 
more why this is an important topic.
    You all have testified as to a number of ways to go about 
this coordination. For example, in Florida, there is a 
coalition, as I mentioned, of 20 organizations, agencies, and 
universities that try to improve the transportation for 
seniors. For example, one of them is called Find A Ride, 
developed by the University of Florida, and the senior goes and 
identifies the type of visit they need to make, such as it is a 
medical visit, it is they need help because they are disabled, 
where they need the ride, and then it is presented with 
various--the senior is presented with various public and 
private options.
    So, why don't you all share, with Susan and me, some other 
kinds of innovative efforts other than what you have testified 
that might stimulate our thinking.
    Ms. Dize. I would like to suggest a couple of things. One 
is that a couple of years ago, the NCST provided some support 
to researchers in Missouri, Dr. Tom Meuser, and he developed, 
along with his colleague, a tool called the Assessment of 
Readiness for Mobility Transition, and it is a tool that can be 
used to have a conversation with older adults to help them 
identify how ready they are to transition, how important 
driving is to their sense of self and independence, and that 
way, interventions can be designed to help people become more 
ready and be prepared for driving transition, because I believe 
that, unfortunately, so many people are faced with transition 
as a threat. They have had a fender-bender or a much more 
serious situation, or family members hide the keys from them. 
And I think that we really need to start having these 
conversations earlier. The ARM tool is one instrument to help 
that happen.
    Ms. McMillan. Senator, one of the basic requirements for 
making a number of the initiatives we have outlined here is you 
need to really start with good planning and planning that is 
focused at the community that needs to coordinate the services. 
And I think the example that you just outlined in Florida is 
exactly the type of model we need to make work on a much more 
consistent basis throughout the country.
    Under current rules to access the major funding source for 
enhanced services for seniors and disabled--persons with 
disabilities, we require this coordinated--it has got a long 
name--Coordinated Public Transit and Human Services Plan, but 
the point there is that we require that senior members and 
persons with disabilities must participate in the development 
of that plan so the users are helping to design the system. And 
it might seem a simple thing, but it is incredibly important 
that when you are designing services, that the people who are 
going to use them are involved very early.
    What we would like to see is not only that be a standard 
for the transportation planning, but as Dr. Baldwin pointed 
out, we need to have planning on such things as housing and 
medical care and the other elements, and so having that type of 
coordinated planning effort in those sectors, as well, to link 
with what were happening at Transportation could just make it 
much clearer in terms of what are the services and activities 
people need to access and then connect that with how you get 
there, which is the transportation end of things.
    The Chairman. Yes, ma'am.
    Ms. Freund. I think that coordination is very, very 
important, but there are some important numbers to remember. 
Public transportation for people over 65 accounts for between 
two and three percent of the trips they take, and since most of 
the resources for transportation, by a ratio of five-to-one, 
are private, I think that a major part of the solution is when 
you engage the community, do not just engage the demand side of 
the problem, which is the consumers. It is a supply side 
business problem. There are not enough resources to address 
this. So, bring the business community to the table. Bring 
corporate America to the table.
    And, I think a huge thing that could happen, perhaps as a 
result of these hearings or other Federal action, would be to 
awaken the American people to the social need that we are 
looking for and encourage everybody to look around them and 
give an older person a ride. I think the solution is sitting in 
driveways from coast to coast, and if people will just open 
their eyes and see the--and I think people are really willing 
to help each other, but we just do not have a culture of 
looking around and realizing that older people have this need. 
I mean, and that is right there. That does not cost any public 
money at all.
    The Chairman. Is it in your experience that a senior will 
limit their mobility because they do not want to be a burden on 
their family members?
    Ms. Freund. Absolutely. Absolutely. I mean, I must have 
heard an older person say, ``I do not want to be a burden,'' 
about a quarter of a million times already.
    The Chairman. Right.
    Ms. Freund. Nobody wants to be a burden, and I think that 
is so at any age.
    The Chairman. Dr. Baldwin.
    Mr. Baldwin. Yes. One of the innovations that I want to 
bring forward is something that we have been charged with at 
CDC, that is to think about the connection between clinical 
medicine and public health. In early September, Dr. Frieden 
sent all of the CDC leadership a note saying, ``How can we 
improve prevention and health care,'' and he outlined four 
specific areas that I think crosswalk nicely with 
transportation.
    The first was to reduce practice variability. An 
opportunity in this space is as we get better and better about 
understanding driver fitness and how to evaluate it, reducing 
practice variability across health care settings is going to be 
critically important.
    The second area was engaging the entire health care team, 
so assisting with these screenings, understanding these 
transitions, engaging allied health, occupational therapists, 
and others, and then, importantly, having those professionals 
connect with these transportation services.
    The third area was to leverage health IT. As electronic 
health records become more and more ubiquitous in this country, 
I think there is a real opportunity to leverage those. One of 
the issues, as we all know, in older drivers is the issue of 
polypharmacy or medication management. Those electronic health 
records can sort of help understand what the issues are at 
play, and they can help potentially--again, I know there are 
some HIPAA issues--with connecting potential individuals who 
may be at risk to informing the Department of Motor Vehicles 
and others.
    And the final is to--you know, I think one of the drumbeats 
you are hearing from all of us in this case is remaining 
patient-focused, but thinking about the older adult themselves. 
So what are their needs? Using some of the older mobility 
assessment tools that have been discussed, understanding them, 
and then catering services to that end.
    So, I think there is a real opportunity in sort of 
connecting clinical medicine and public health and I think that 
is an untapped innovation.
    The Chairman. Dr. Baldwin, how are you all working to 
promote health and transportation and reaching out between your 
agency, HHS, and DOT?
    Mr. Baldwin. Sure. So, injuries are the leading cause of 
death for Americans between one and 44 and the fifth leading 
cause of death overall. CDC Director Frieden, this is one of 
his priority topics because of both the burden, the 
availability of evidence-based interventions that can be 
readily scaled up.
    As part of that, and I spoke briefly in my remarks about 
the strengthening of the connection that we have made with DOT 
and particularly the National Highway Traffic Safety 
Administration, there are some real opportunities there. 
Because transportation impacts so much of us in public health 
and so broadly, I think that is one of the other reasons why it 
is a public health issue.
    Earlier this year, the CDC and partners released Aging and 
Health in America 2013. One of the issues that was spotlighted 
here by our colleagues in the Healthy Aging program at the 
Chronic Disease Center was, in fact, mobility. So it both cuts 
into motor vehicle injury prevention, which is the expertise 
where I reside, as well as our colleagues in chronic disease 
and environmental health. So, it is really a cross-cutting 
issue.
    The Chairman. And I would like the two of you to comment, 
is there anything in the Affordable Care Act that is applicable 
to stimulate and to fund transportation solutions.
    Mr. Baldwin. Sure. From CDC's perspective, the biggest 
touchpoint in the Affordable Care Act that impacts us is 
through our Community Transformation Grants. It has the 
opportunity to impact over 130 million Americans, and we are 
currently working to improve community design to encourage 
active transportation--walking and biking--for all ages, 
including older adults.
    In the first round of funding in 2011, $103 million were 
distributed to 61 State-local agencies, including Tribes and 
non-governmental organizations. And in round two of that 
funding, an additional $70 million went to 40 communities--
these are smaller communities.
    In fact, impacting your home State of Florida, we support 
the Broward Regional Health Planning Council to incorporate 
complete street standards and smart growth principles, to 
increase access to safe and comfortable transportation for 1.3 
million commuters. And, Senator Collins, in your State, in 
Portland, Maine, Maine Health is working to improve active 
transportation for up to 57,000 people as a result of CTG, the 
Community Transformation Grants.
    Ms. McMillan. Well, just to maybe complement that from our 
perspective, as you know, the Affordable Care Act is 
administered by the Centers for Medicaid Services at HHS, and 
in talking with our partners there, we understand that under 
the Medicaid expansion for household incomes up to 133 percent 
of the poverty line, transportation is a required service, and 
so older adults would be eligible to receive transportation 
access for medical services within that envelope.
    Very importantly, though, I would like to also mention how 
HHS really has been an incredibly strong partner with FTA on a 
number of levels, and very importantly--I mentioned it in my 
testimony, I can elaborate--the ability to leverage the funding 
sources that we have available for services for seniors for 
things such as accessing medical care does require, by law, a 
match. But what is made available is the fact that, unlike in 
most programs, other Federal funds, such as HHS funds, can be 
used by communities to match the transportation fund, and that 
is very important, particularly for communities that may be 
stretched in terms of their own local sources that might 
otherwise need to be brought to bear. So, it enables a number 
of the programs that folks might want to pursue with our 
transportation dollars, including health access, for that to be 
not such a financial burden because they can deploy the HHS 
funding to help get those projects on the ground.
    The Chairman. And, do any of you want to comment on what 
this last round of sequestration has done and what you might 
expect this next round, if enacted January 15, of sequestration 
will do?
    Mr. Baldwin. I will comment on that. Sequestration required 
CDC to cut about five percent, or more than $285 million, from 
its fiscal year 2013 budget, and we applied those cuts evenly 
across all programs, projects, and activities. This, frankly, 
means that every area at CDC was impacted. In addition, the 
Prevention and Public Health Fund allocation in fiscal year 
2013 was almost $350 million below the fiscal year 2012 number. 
So, in total, CDC programs lost about $1 billion, or ten 
percent of the entire CDC budget, below fiscal year 2012 
numbers.
    Ms. McMillan. Well, sequestration had a very direct impact 
on the research money that goes to supporting the work of the 
Technical Assistance Centers that we have here. That, combined 
with appropriation pressures, really meant that for a number of 
our centers, we were able to continue funding them for this 
year, but unless the situation changes for next year, it is 
going to be very tough to continue providing the technical 
assistance that is extremely cost effective in terms of, again, 
having folks on the ground be able to advance the programs that 
we are administering.
    The Chairman. Thank you all.
    Senator Collins. According to the Bureau of Labor 
Statistics, the average household spends about 20 percent of 
its income on transportation. I will say that was higher than I 
expected. We tend to think of shelter, food, clothing, when, in 
fact, transportation is right up there after housing as a large 
part of household income expenditures.
    So, Ms. Freund, when you were talking about seniors being 
willing to pay the $11, is that because they understand how 
much a car costs them to maintain, to insure, to drive?
    Ms. Freund. Senator Collins, I am not sure they understand 
that on any kind of a sort of conscious or cognitive level, but 
I do think that people truly are willing to pay for a service 
that they need and that they know will help them remain 
independently in their homes. Even our ITN users who use the 
service very, very, very often are spending far less than it 
costs to support a private automobile.
    You know, those numbers are shocking, I know, but numbers 
are numbers and reality does not go away. Those are free 
consumer choices. People will willingly spend 20 percent of 
household income on transportation, and I think that--I mean, 
to me, that is a big pot of gold. To me, that is not bad news. 
To me, that is good news. All we need to do is provide a 
service that they want and they will pay for it.
    Senator Collins. Exactly. I think that is why when one 
first hears $11 a trip or $6 a trip, you think, oh, is that 
going to be a barrier? But when you look at what people are 
already spending, it translates into a very reasonable amount, 
and certainly the demand for your service proves that.
    But, I think it would be helpful for the committee if you 
were to describe to us a typical ITN member in the State of 
Maine.
    Ms. Freund. Sure. I can actually describe a typical ITN 
member in 20 States.
    [Laughter.]
    Senator Collins. Very impressive.
    Ms. Freund. Well, the numbers are consistent over many 
years. The typical member, the average age is 80, but the most 
common age is 85. Eighty percent of our members are women. Most 
of those women are living alone in the community and most of 
those women have sort of a lower- to middle-income range and 
they use their rides most commonly for access to medical care, 
but also for shopping and social needs and so forth.
    Senator Collins. And, what about income levels? Could you 
give us a sense of what the average income level, or what 
percentage--you mentioned that you have a significant 
percentage below $25,000 annual income.
    Ms. Freund. Well, more than half of the people who use the 
service have an income of $50,000 or less, and they use the 
service between two and four times a week.
    The Chairman. Are any of them in rural areas that you go to 
pick up?
    Ms. Freund. Some are in rural areas, but most are in 
suburban areas. The service we are developing for rural areas 
is ITNEverywhere. That is the next phase of what we are doing. 
I can also tell you that 50 percent, a little over 50 percent 
of the people we serve have some kind of a mobility impairment, 
either a chair or a walker or a cane, and 30 percent are either 
blind or visually impaired. So, we are talking about a frail 
population.
    Senator Collins. And a very vulnerable population that 
really should not be driving and cannot drive.
    Ms. Freund. Twenty-five percent of the people who use ITN 
are driving at the time that they sign up, and then they 
transition voluntarily because they have an alternative. In an 
evaluation of the project that we did for the Atlantic 
Philanthropies, we were actually able to determine that after 
using the service for six months, and again at 12 months, that 
the amount of mobility people felt themselves to have was equal 
to the amount of mobility they had when they were driving, 
which is something that I think nobody thought was possible. 
But it is possible.
    Senator Collins. That is really a terrific result. That is 
great news. I am very eager to see you expand into the rural 
areas of the State, as you know.
    Ms. Freund. You can have my credits, too, then.
    [Laughter.]
    Ms. Freund. Thank you.
    Senator Collins. Ms. McMillan, Ms. Freund said something I 
thought was very profound when she said the answer is in our 
driveways across America and that there is a lack of public 
awareness that we each could be really helpful by volunteering 
to drive an elderly person to an appointment or to see a friend 
or to the grocery store. You mentioned in your opening 
statement that there are some 400 Mobility Managers. What do 
these people do and where are they?
    Ms. McMillan. Well, they are all across the country, and 
what Mobility Managers do is, again, they are sort of the 
master ride match service, you might say, in terms of being 
able to identify, first of all, what is the customer 
constituency that you are trying to serve, where do they need 
to go, and what is the combination of different services that 
might get them there, whether that be a ride sharing, volunteer 
or otherwise, service provided by a nonprofit, public transit 
service, paratransit service, again, a taxi, accessible taxicab 
service. Within that community, what are all the various 
options that might be there and then serve to assist in what we 
hope more and more, through a one-call or one-click web-based 
service, of how someone can put together the customized ride 
from A to B that they need to have.
    And, again, we have been able to fund those under--in 2005, 
I believe, one of the important changes in our authorizing law 
is that those Mobility Management services can be funded from 
our core funding programs both for urban and rural areas. They 
are coded Section 5307 and 5311. But the point being that there 
is an eligibility that was extended to these Mobility 
Management options that then can be funded with Federal 
dollars, because we would like to see them more and more.
    I think we had 325--let me see, I was trying to think--it 
was $325,000 was being spent when that eligibility first 
happened in 2005 and now it is over $40 million are being spent 
per year on these services. So, we have seen a huge jump in 
interest.
    Senator Collins. And, I think that reflects the growing 
need of our increasingly eligible population, but I am 
concerned that there is a lack of public awareness about these 
services and about the Mobility Managers. This is an issue 
that, because of ITNAmerica, I have followed fairly closely, 
and as someone who represents a State that by median age is the 
oldest in the nation, I also have a great interest in how we 
are going to meet this need. And, prior to this hearing, I was 
not aware of these Mobility Managers.
    So, I wonder what is being done to increase public 
awareness to work more closely with, perhaps, seniors, groups 
in the States, whether it is AARP or just senior centers in 
various communities. What are you doing to increase the 
visibility?
    Ms. McMillan. Well, there are a couple of things I would 
mention. I had mentioned before this coordinated plan that is 
required to access some of our funding. One recommendation that 
has been made is that there really needs to be an ongoing 
coordinating council that involves on an ongoing basis the very 
groups you have just mentioned, whether it is AARP or senior 
groups within the community, faith-based organizations, that 
can get the word out that these services are available.
    One thing that we did when we had our Veterans 
Transportation and Community Living Initiative that we funded 
in fiscal year 2011 and 2012 that I mentioned, we specifically 
included as part of that program a marketing program. So, there 
was assistance that was allowed for some folks to come in 
simply to, as you well observed, be able to get the word out 
that once we put the service out there for Mobility Management 
serving not only veterans and their families, but also other 
community members that needed those same services, that there 
was a way, as you say, of getting the word out. And so it is a 
very important point that we need to keep in mind going forward 
with these programs.
    Senator Collins. Ms. Dize.
    Ms. Dize. Thank you. I think that one of the issues is that 
there is, parallel with the development of Mobility Management, 
there is also an increasing amount of effort, I think, within 
the aging network and within human services that provide 
general information and assistance lines to address 
transportation, because very often, transportation arises out 
of a panoply of needs. The person may initially call about 
health care or home- and community-based services and 
transportation is an adjunct to that need. So, it is important 
that general information lines are equipped to know about the 
transportation resources and to connect with Mobility Managers 
where they exist in the community, and I think a lot of that is 
happening.
    I would say that n4a, which is the association I work for, 
administers an AOA-funded service called the Elder Care 
Locator. Last year, the number one reason why people called was 
about transportation. We got more than 18,000 calls about 
transportation between July of 2012 and June 2013, and those 
numbers are increasing. And even though people struggle with 
financial issues, health care issues, and so forth, 
transportation remains number one.
    I also think there is a lot going on in communities to 
increase the expertise and the connectedness between the human 
services programs and transportation so that when people call, 
they have the full picture.
    Senator Collins. Thank you.
    And, finally, Ms. Freund, in Maine recently, as you know, 
there have been some problems with contractors who have been 
hired to provide rides to individuals who receive services 
through the Medicaid program. Do you assess as part of ITN's 
evaluation the reliability and quality and customer 
satisfaction, if you will, of your program?
    Ms. Freund. We have an annual customer satisfaction survey 
that we do for ITN in Maine and across the country, and the 
customer satisfaction ratings have been consistent over a 
number of years. I think 98 percent of the people who use the 
service would recommend it. Ninety-six percent are happy with 
the service. About two to three percent think that the service 
is too expensive for the service they receive. And by about 
ten-to-one, people think that it is inexpensive for the service 
they receive. So, we do ask those questions.
    We also do a survey of all our volunteers every year and 
our affiliates every year, because if you are doing something 
wrong, you want to know it right away, right?
    Senator Collins. Exactly. Well, I think it is such an 
impressive program and I have been delighted to see it 
replicated through your leadership in so many other States. I 
think it is a great model that we can encourage to be spread. I 
hope the Federal Department of Transportation, which has been 
generous in its support in the early years, will take notice of 
the program and the high satisfaction rates, as well, because 
this is a problem that is not going to go away, and I think for 
rural States, in particular, it poses a tremendous challenge 
for seniors living in very rural areas where, frankly, there 
simply is no alternative to a car.
    That is one of the reasons that I am so grateful to the 
Chairman for allowing us to have this hearing today, and I just 
want to thank all of you for adding to our knowledge. When I 
heard Ms. Freund give those satisfaction rates, I could not 
help but think that Congress would be happy to have half those 
rating levels.
    [Laughter.]
    Senator Collins. But, they truly are impressive, so thank 
you very much, Mr. Chairman, and thank you all for testifying.
    The Chairman. Well, it has been a great discussion and it 
is a discussion about an obligation of a society to take care 
of not only the very young, but the very old. And so Susan and 
I are just very grateful to be a part of this, so thank you 
very much.
    The meeting is adjourned.
    Senator Collins. Thank you.
    [Whereupon, at 3:37 p.m., the committee was adjourned.]



      
      
      
      
      
      
      
      
      
      
      
      
      
      
=======================================================================


                                APPENDIX

=======================================================================





      
      
      
      
      
      
      
      
      
      
      
      
      
      
=======================================================================


                      Prepared Witness Statements

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





  
      
      
      
      
=======================================================================


                  Additional Statements for the Record

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Testimony of The Honorable Norman Y. Mineta
    Chairman Nelson, Senator Collins, and Members of the Committee, 
thank you for the opportunity to submit this testimony. My name is 
Norman Y. Mineta, and I served as Secretary of Transportation from 
January 25, 2001, until July 7, 2006. My interest in road safety 
continues, in our country and globally, as I now serve as the North 
American Chairman of the Make Roads Safe Campaign and as a Member of 
the Commission for Global Road Safety, which successfully proposed the 
establishment of the United Nations Decade of Action for Road Safety 
2011-2020.
    During my service as Secretary of Transportation, we worked to 
address transportation for older Americans by using public resources 
more efficiently, and by looking toward private resources as another 
opportunity to meet the growing mobility needs of our older population. 
A 2003 Memorandum of Understanding between the Administration on Aging 
and the Federal Transit Administration sought to develop more efficient 
use of scarce public resources through collaboration and coordination 
of services. That effort continues with the United We Ride program but 
progress has not been easy. Eight years later, a 2011 GAO Report (GAO-
11-318SP) ``Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue,'' reports that ``With 
limited interagency coordination and direction at the Federal level, 
the United We Ride initiative and the Federal Transit Administration 
(FTA) have encouraged State and local coordination.''
    Another 2004 General Accountability Office Report, Transportation-
Disadvantaged Seniors, prepared for the Chairman of the Senate Special 
Committee on Aging, points to another significant issue. The GAO report 
evaluates existing Federal programs designed to provide transportation 
for the poorest and neediest older Americans. Defining 
``transportation-disadvantaged'' seniors as ``those who cannot drive or 
have limited their driving and who have an income constraint, 
disability, or medical condition that limits their ability to travel,'' 
the report concludes, as its subtitle suggests, that ``efforts to 
enhance senior mobility could benefit from additional guidance and 
information.'' \1\
---------------------------------------------------------------------------
    \1\ GAO-04-971, Highlights.
---------------------------------------------------------------------------
    The GAO determined that Federal programs are not meeting certain 
types of needs, including ``(1) transportation to multiple destinations 
or for purposes that involve carrying packages, such as shopping, for 
which the automobile is better suited than other alternatives; (2) 
life-enhancing trips, such as visits to spouses in nursing homes or 
cultural events; (3) trips in non-urban areas, especially for seniors 
in rural communities, where alternatives to the automobile are less 
likely to be available and special transportation services are 
limited.'' \2\
---------------------------------------------------------------------------
    \2\ GAO-04-971, P. 4.
---------------------------------------------------------------------------
    The report was helpful, but because the GAO was charged to look 
only at the mobility needs of transportation-disadvantaged seniors, and 
further limited to an evaluation of existing Federal programs, it was 
unable to address the safety and mobility needs of the majority of 
aging Americans whose health and income status place them beyond the 
reach of today's federally funded transportation programs. Keeping in 
mind that almost 90 percent of trips by Americans age 65 and older are 
taken in the private automobile, either as the driver or the passenger, 
and that 8 percent of trips are walking, it is clear that only a small 
proportion of trips by older Americans are taken on public 
transportation. Moreover, seniors who stop driving outlive their 
decision by about 10 years. So while it is certainly important for 
government programs to be more efficient, and we know they are trying 
hard to do so, it is also important for us to remember that most older 
people travel in cars, and they are willing and able to pay their own 
way.
    There is an array of resources available to address senior mobility 
needs. The business community has a keen interest in older people as 
consumers of goods and services. A broad look at senior transportation, 
beyond marginal improvements to existing policies and programs, has the 
potential to improve services for seniors across all socio-economic 
groups.
    Members of the Committee, I have experienced this transportation 
need in my own family. Our country needs many approaches, both public 
and private, to address the unmet transportation needs of our aging 
population in the years ahead. I encourage you to look openly at both.
    Thank you for this opportunity.
  

                                  <all>
</pre></body></html>
